CONCLUSION
For the foregoing reasons, I respectfully
request that this Court issue a writ of certiorari to
review the judgement of the District of Columba
Court of Appeals.
DATED: This

2021.

o

Respectfully submitted,

David I^TSeaton
Petitioner, Pro Se
200 W. 80th Street Apt 5N
New York, NY 10024
(646) 262-8231
drseatonl23@gmail.com

57

APPENDIX
SUPERIOR COURT OF THE DISTRICT OF COLUMBIA
Civil Division
DAVID R. SEATON,
Plaintiff,

Case No.
2017 CA 006737B

v.

Judge Robert R.
Rigsby

BLAKE JOHNSON, et al.,
Defendants
ORDER
This matter is before the Court on Defendants’
Motion for Summary Judgment, filed on October 22, 2018.
Plaintiff filed an opposition on October 31, 2018, and
Defendants filed a reply on November 7, 2018. Upon
consideration of Defendants’ motion, Plaintiffs opposition,
and the entire record here in, Defendants’ motion is
GRANTED for the reasons set forth below.
BACKGROUND

58

Late on the evening of October 6, 2016 or early in the
morning on October 7, 2016, Plaintiff, David R. Seaton,
raised his middle finger to a police car in downtown
Washington, D.C. Compl. ^ 1; PL’s Opp’n at 4. Plaintiff
then continued down the street to a bar, known at the time
as RFD. Compl. U 2\ Pl.’s Opp’n at 4. The bouncer and
manager at RFD refused to admit Plaintiff because “he
gave the finger to a cop” which the manager considered
“aggressive.” Pl.’s Opp’n at 4. Plaintiff objected to the
manager’s decision alleging that he was being excluded for
expressing an opinion. Pl.’s Opp’n at 4. As Plaintiff was
attempting to enter the bar, the manager walked down to
the police car that Plaintiff had walked past previously and
asked the officers within the car, Defendants Officer
Johnson and Officer Vullo, to come over to the bar. Officers
Johnson, Vullo, and D’Angelo’s Body Cam Footage, Def.’s
Ex. 4, Ex. 5, Ex. 7. The officers approached Plaintiff
outside the bar. Compl. ^ 2; Pl.’s Opp’n at 4. The officers
59

informed Plaintiff that he was not allowed to enter the bar
and would be arrested if he tried to enter. Pl.’s Opp’n at 4.
The officers suggested that Plaintiff go to a different bar,
but Plaintiff refused. Id. Plaintiff then requested the
officers’ names and badge numbers, which the officers
orally provided. Compl. | 3i PL’s Opp’n at 4. Plaintiff
objected to the oral recitation and demanded that the
officers write down their names and badge numbers.
Compl. U 3*4; Pl.’s Opp’n at 4. The officers refused to write
down the information. Compl. T| 4; Pl.’s Opp’n at 4. During
this series of exchanges, Plaintiff became increasingly loud
and aggressive. Def.’s Ex, 4, Ex. 5, Ex. 7. Officer Johnson
stepped toward Plaintiff as he was yelling, and Plaintiff
turned toward Officer Johnson and leaned toward him
while screaming “fuck you” and made contact with Officer
Johnson’s face. Id. At this point there was an altercation
between Officer Johnson and Plaintiff. Compl. f 5; Pl.’s
Opp’n at 5. In response Officer Johnson took Plaintiff to
60

the ground and placed him in handcuffs. Compl. 1 5; Pl.’s
Opp’n at 5. Plaintiffs was arrested for assaulting an
officer, D.C. Code § 22*405(b), and disorderly conduct, D.C.
Code § 22-1321. Def.’s Ex.10.
As a result of the takedown, Plaintiff received a
laceration on his face. Compl. f 6. An ambulance was
called to the scene, but Plaintiff was not taken to the
hospital at that time. Pl.’s Opp’n at 5-6. Later that night,
Plaintiff went to Howard University Hospital to receive
treatment for his injuries. Pl.’s Opp’n at 6.
On October 7, 2016, Plaintiff appeared in court and
he was charged with simple assault, D.C. Code § 22-404.
Def.’s Ex. 11; Def.’s Ex. 12, On November 16, 2016, Plaintiff
entered into a Community Service Deferred Prosecution
Agreement, in which he agreed to complete thirty-two
hours of community service in lieu of going to trial. Pl.’s
Opp’n at 6; Def.’s Ex. 13. Plaintiff completed his
community service on December 28, 2016. Def.’s Ex. 14.
61

The criminal case against Plaintiff was dismissed on March
16, 2017. Def.’s Ex. 12.
On October 5, 2017, Plaintiff filed this case pro se
against Officer Blake Johnson, Officer Corey Vullo, Officer
John D’Angelo, the City of Washington, D.C., Mayor Muriel
Bowser in her Off. Capacity, Metropolitan Police
Department, Chief Peter Newsham in his Off. Capacity,
and One to Ten Additional Unknown Officers. In his
Complaint, Plaintiff alleged eight counts: Count I- Battery;
Count II- False Arrest; Count IIIDefamation/Libel/Slander; Count IV: Negligence, Count V:
Excessive Force; Count VT Intentional Infliction of
Emotional Distress; Count VII: Assault; and Count VIII:
Negligence. On April 24, 2018, the unknown officers were
dismissed pursuant to Super. Ct. Civ. R. 4(m). On March 6,
2018, Defendants Mayor Muriel Bowser, Chief Peter
Newsham and Metropolitan Police Department filed a
motion to dismiss the claims against them. On JulylO,
62

2018, the Court granted the motion, and Mayor Muriel
Bowser, Chief Peter Newsham and the Metropolitan Police
Department were dismissed from the case. Defendants now
move for Summary Judgment on all counts.
STANDARD OF REVIEW
To prevail on a motion for summary judgment, the
moving party has the burden of demonstrating,
based on the pleadings, discovery, and any affidavits
submitted, that there is no genuine issue as to any
material fact and that it is thus entitled to judgment
as a matter of law. See Super. Ct. Civ. R. 56(c); see
also Wash. Inv. Ptnrs. OfDel., LLCv. Sec. House, 28
A. 3d 566, 573 (D.C. 2011) (citing Grant v. May
Department Stores Co., 786 A.2d 580, 583 (D.C.
2001)). “A genuine issue of material fact exists if the
record contains ‘some significant probative
evidence...so that a reasonable fact-finder would
return a verdict for the non-moving party.”’ See
63

Brown v. 1301 KSt. Ltd. P’ship, 31 A. 3d 902, 908
(D.C. 2011) (citing 1836 S. St Tenants Ass’n v.
Estate ofBattle, 965 A.2d 832, 836 (D.C. 2009)).
Once the movant satisfies this burden, the
burden shifts to the non-moving party to show the
existence of an issue of material fact. See id.; Bruno
v. Western Union Fin. Servs., Inc., 973A. 2d 713,
717 (D.C. 2009). To defeat summary judgment, the
non-moving party “must produce at least enough
evidence to make out a prima facie case in support of
his position,” Bruno, 973A. 2d at, 717(internal
quotations and citation omitted), and “set □ forth
specific facts showing that there is a genuine issue
for trial.” See Harris v. D. C. Water & Sewer Auth.,
No. CV 12-1453 (JEB), 2016 WL 1192652, at *3
(D.D.C. Mar. 28, 2016). “A movant is entitled to
summary judgment when the evidence is such that a
reasonable jury, drawing all reasonable inferences in
64

the non-movant’s favor, could not return a verdict for
the non-movant.” See Walker v. Johnson, 798 F.3d
1085, 1091 (D.C. Cir. 2015) (citing Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248, 255 1986)).
ANALYSIS
In their motion, Defendants allege there are
not material facts in dispute, and request judgment
in their favor on all counts. Plaintiff opposes the
request. The Court shall deal with each count and
each of Plaintiffs arguments in turn.
Preliminarily, Plaintiff alleges that
Defendants’ motion was not timely filed. Pursuant to
the original Scheduling Order, the filing motions
deadline was October 10, 2018. On September 19,
2018, Defendants filed a motion seeking to extend
the deadline to October 19, 2018. Plaintiff did not
oppose the motion. On October 19, 2018, Defendants
filed their Motion for Summary Judgment. On
65

November 6, 2018, the Court granted Defendant’s
Motion to Amend the Scheduling Order, making the
deadline for filing motions October 19, 2018. As the
Court granted the Motion to Amend the Scheduling
Order, Defendant’ Motion for Summary Judgment
was timely filed.
I. Count V- Battery, Count VIF Assault, Count V*
Excessive Force
In cases involving a police officer, battery,
assault, and excessive use of force are all related,
thus the Court shall dispense with Counts I, VIII
and V together.
“An assault is ‘an intentional and unlawful
attempt or threat, either by words or by acts, to do
physical harm to the victim.’” Evans-Reid v. District
of Columbia, 930 A.2d 930, 937 (D.C. 2007) (quoting
Etheredge v. District of Columbia, 635 A.2d 908, 916
(D.C. 1993)). “A battery is an intentional act that
66

causes a harmful or offensive bodily contact.” Id. In
cases involving police action, however, claims for
assault and battery usually turn on the defense of
privilege. Id. “A police officer has a qualified privilege
to use reasonable force to effect as arrest, provided
that the means employed are not in excess of those
which the actor reasonably believes to be necessary.”
Smith v. District of Columbia, 882A.2d 778, 787
(D. C. 2005) (internal citations and quotations
omitted). “Moreover ... an officerD is justified in
using reasonable force to repel an actual assault, or if
he reasonably believes he is in danger of bodily
harm.” Id.
Here there are two potential instances of
assault and battery. The first is Plaintiffs claim that
Officer Johnson head-butted Plaintiff prior to taking
Plaintiff down for an arrest. Defendants, by
contrast, allege that Plaintiff was the one to head67

butt Officer Johnson. The body camera footage from
Officers Johnson, D’Angelo and Vuello shows that
Officers Johnson and Vuello approached Plaintiff
outside the bar. Def.’s Ex 4, Ex. 5, Ex. 7. Plaintiff
was visibly agitated because he had been denied
entry into the bar, and was loudly alleging that his
first amendment rights were being infringed. Def.’s
Ex 4, Ex. 5, Ex. 7, Ex. 8. The officers explained that
Plaintiffs’ rights were not being infringed, and that
the owner and bouncer, who were both outside the
bar, had a right to deny Plaintiff entry into the bar.
Id. Plaintiff continued yelling, becoming increasingly
louder and more profane. Id. The officers suggested
several times that Plaintiff leave or go to a different
establishment, but Plaintiff refused. Def.’s Ex 4, Ex.
5, Ex. 7. Plaintiff continued to yell and swear at the
officers, demanding that they write down their
names and badge numbers. Def.’s Ex 4, Ex. 5, Ex. 7.
68

After a few moments of Plaintiff yelling and
swearing, Officer Johnson took several steps closer to
plaintiff. Def.’s Ex 4, Ex. 5, Ex. 7. Plaintiff
responded by taking a step toward Officer Johnson
and leaning in toward him, so that Officer Johnson
and plaintiff were chest to chest and nose to nose. Id.
Plaintiff continued to yell aggressively and shoved
his face even further into Officer Johnson’s face
causing further contact. Id. Thus, though Plaintiff
alleges that Officer Johnson initiated the contact, it
is clear from the evidence in the record that Plaintiff
was the one to initiate the contact.
None of Plaintiffs evidence shows that Officer
Johnson was the one to initiate contact. Plaintiffs
affidavit does not mention the head-butting incident,
and thus, cannot support his claim that Officer
Johnson was the one to initiate contact. PL’s Ex. 1.
Plaintiffs letter to risk management states that
69

Officer Johnson put his forehead on Plaintiffs cheek,
Pl.’s Ex. 2, which differs from plaintiffs description
in his opposition, PL’s Opp’n at 5, and directly
contradicts the video evidence at the scene, Def.’s Ex
4, Ex. 5, Ex. 7, and sworn eyewitness statements
that were given at the scene, Def.’s Ex 6, Ex. 8, the
remainder of Plaintiffs exhibits relate to his
treatment at Howard University Hospital later that
night. Thus, though Plaintiff has stated that Officer
Johnson was the one to initiate the head-butt, the
evidence in the record cannot support this
conclusion. As plaintiff initiated the contact with
Officer Johnson, Officer Johnson cannot be held
liable for assaulting or battering Plaintiff for this
contact.
Second, Plaintiff alleges he was battered and
assaulted when the officers took him down to the
ground and arrested him. Plaintiff further alleges
70

that the officers used excessive force when arresting
him, specifically alleging that the officers’ body
slammed him to the ground when they arrested him.
If the officers used reasonable force to bring Plaintiff
under control for the arrest, then they are not liable
for assault or battery to Plaintiff. See Etheredge,
635 A.2d at 916. The body cameras on the officers
clearly show that Officer Johnson, with some
assistance from Officer Vullo and Officer D’Angelo,
quickly and efficiently stepped behind Plaintiff, and
brought him down to the ground with control. Def.’s
Ex 4, Ex. 5, Ex. 7. Officer Johnson did not, as
Plaintiff alleged, “[throw] Plaintiff over his head like
a sack of potatoes toward the concrete.” Pl.’s Opp’n at
5. Rather, the amount of force the officers used was
proportional to the amount necessary to bring
Plaintiff under control for the arrest. Further,
similar to his allegation related to the head-butting,
71

none of the evidence Plaintiff submitted supports his
conclusion. As the officers did not use excessive force
when arresting plaintiff, they cannot be held liable
for assaulting or battering Plaintiff.
Accordingly, Summary Judgment must be
granted in Defendants’favor on Count I, Count V,
and Count VII.
II. Count II- False Arrest
In Count II, Plaintiff alleges false arrest. The
essential element of a false arrest claim is unlawful
detention. Enders v. District of Columbia, 4A.3d
457, 461 (D.C. 2010). Therefore, the central issue for
the Court to determined is “whether the arresting
officer was justified in ordering the arrest of the
plaintiff.” Id. (quoting (Sharon) Scott v. District of
Columbia, 493 A.2d 319, 321 (D.C. 1985)). An arrest
is justified when the arresting officer has probable
cause. Bradshaw v. District of Columbia, 43 A.3d
72

381, 323 (D.C. 2012). An officer has probable cause if
“the officer can demonstrate that (l) he or she
believed, in good faith, that his or her conduct was
lawful, and (2) this belief was reasonable.” Id. At 324
(citations omitted). Whether an officer acted in good
faith must be considered “from the perspective of the
arresting officer, not the plaintiff.” Id.
Here Plaintiff was arrested for assaulting a
police officer. D.C. Code § 22-405(b). To violate the
statute, an individual’s conduct “must go beyond
speech and mere passive resistance, and cross the
line into active confrontation, obstruction or other
action directed against an officer’s performance in
the line of duty.” Cheek v. United States, 103 A.3d
1019, 1021 (D.C. 2014). Here, Plaintiff did “go
beyond speech and mere passive resistance” when he
leaned into Officer Johnson and pushed his face into
Officer Johnson’s face. Thus, Plaintiff did violate the
73

statute. A violation of D.C. Code § 22*405(b) is a
misdemeanor. Police officers are permitted to make
an arrest for misdemeanors committed in their
presence. See D.C. Code § 22-581(a)(l)(B). Thus as
Plaintiff committed a misdemeanor in the presence
of a police officer, the officers were justified in
arresting Plaintiff.
Further, in his Deferred Prosecution
Agreement, Plaintiff admitted that “there is probable
cause for the Court to conclude that “he committed a
simple assault in violation of D.C. Code § 22-404.
Def.’s Ex. 13. Though Plaintiff now claims he did not
understand that signing the Deferred Prosecution
Agreement meant he was making an admission that
there was probable cause, there is no evidence to
support his conclusion. Plaintiff has admitted he
was represented by counsel when he entered into the
agreement and that his counsel explained the
74

agreement to him. Pl.’s Opp’n at 14. Plaintiffs
affidavit does state the he thought the only right he
had given up was his right to a speedy trial. Pl.’s
Ex.l. That does not, however, suggest that Plaintiff
failed to understand the agreement or that there was
undue coercion in executing the agreement. Thus as
Plaintiff previously admitted there was probable
cause for a misdemeanor, he cannot now challenge
the arrest by saying it was improper.
Accordingly, Summary Judgment must be
granted in Defendant’s favor on Count II.
III. Count III- Defamation/Libel/Slander
In Count III, Plaintiff alleges
defamation/libel/slander. “To state a cause of action
for defamation, [a] plaintiff must allege and prove
four elements^ (l) that the defendant made a false
and defamatory statement concerning the plaintiff
(2) that the defendant published the statement
75

without privilege to a third party. (3) that the
defendant’s fault in publishing the statement
amounted to at least negligence- and (4) either that
the statement was actionable as a matter of law
irrespective of social harm or that its publication
caused the plaintiff special harm.” Oparango v.
Watts, 884A.2d 63, 76 (D.C. 2005). Plaintiff cannot
support a claim for defamation.
Plaintiff cannot meet any of the elements of
defamation in this case. Plaintiff has only alleged
that Defendants falsely claimed that he battered a
police officer. As discussed above, the plaintiff was
the one to make contact with Officer Johnson. Thus,
he cannot show that it was a false statement.
Further, however, Plaintiff has provided no evidence
to suggest that Defendants publication of the
statement was negligent or malicious or that he
suffered a harm as a result of the publication.
76

Finally, the officers’ statements in their report are
privileged statements, as they were made in good
faith, in relation to a law enforcement proceeding.
See Columbia First Bank v. Ferguson, 665 A.2d 650,
655 (D.C. 1995). Thus, the officers’ statements
cannot be the basis of a defamation claim, even if
everything as alleged in Plaintiffs complaint is true.
Accordingly, Summary Judgment must be
granted in Defendants’ favor on Count III.
IV. Count IV^ Negligence and Count VIII: Negligence
In Count IV, Plaintiff alleges that the officers
who arrested him were negligent in their duty and
caused him harm during the arrest. In Count VIII,
Plaintiff alleges negligent supervision, retention, and
training, with regard to the officers that were
responsible for his arrest. An expert is required to
prove both of these claims. See Holder v. District of
Columbia, 700 A.2d 738, 741-42 (D.C. 1997) (stating
77

that an expert is required in cases where a plaintiff
sues an officer for negligence because “the applicable
standard of care in cases of this kind is beyond the
ken of the average lay juror”); see also Pannell v.
District of Columbia, 829 A.2d 474, 479 (D.C. 2003)
(stating that “the standard of care owed by the
District of Columbia to persons in its custody is a
matter beyond the ken of the average juror that
requires expert testimony”)? see also. District of
Columbia, v. Davis, 386 A.2d 1195, 1200*01 (D.C.
1987) (holding that an expert is necessary in
negligent supervision, training, and retention cases
against police officers). Plaintiff has identified no
experts in this case. Thus, Plaintiff cannot prove his
negligence claims.
Accordingly, Summary Judgment must be
granted in Defendants’ favor on Count IV and Count
VIII.
78

V. Count VI: Intentional Infliction of Emotional
Distress
In Count VI, Plaintiff alleges intentional
infliction of emotional distress. In order to establish
intentional infliction of emotional distress “a plaintiff
must shoe (l) extreme and outrageous conduct on the
part of the defendant which (2) intentionally or
recklessly (3) causes the plaintiff [to suffer] severe
emotional distress.” Ortberg v. Goldman Sachs
Group, 64 A.3d 158, 163 (D.C. 2013) (quoting
Baltimore v. District of Columbia, 10 A.3d 1141, 1155
(D.C. 2011)) (alteration in original). “Liability will
only be imposed for conduct so outrageous in
character, and so extreme in degree, as to go beyond
all possible bounds of decency, and to be regarded as
atrocious and utterly intolerable in a civilized
community.” Id. (quoting Homan v. Goyal, 711 A.2d
812, 818 (D.C. 1998)). Further, under D.C. law, a
79

claim for intentional infliction of emotional distress
“generally requires a Plaintiffs distress to be so
intense that there is some physical manifestation of
the emotional turmoil.” Arias v. DynCorp, 2016 U.S.
Dist. LEXIS 15156 at *36 (D.D.C. 2016).
Here, Plaintiff has put forth no evidence to
show that he is suffering from severe emotional
distress or that he is suffering from any physical
manifestations of emotional turmoil. Though
Plaintiff submitted medical reports from his visit to
the hospital shortly after his arrest, the reports only
state that Plaintiff had received a laceration on his
face, and do not suggest that there were any further
emotional issues at the time. Pl.’s Ex. 4. Further,
Plaintiff has not shown that the symptoms continued
after that initial visit. Thus, Plaintiff cannot show
that he is suffering from emotional distress.

80

Accordingly, Summary Judgment must be
granted in Defendants’ favor on Count VI.
CONCLUSION
Construing all evidence and drawing all reasonable
inferences in the light most favorable to Plaintiff,
this Court GRANTS Defendant’s Motion for
Summary Judgment. Accordingly, and based on the
entire record herein, it is this 9th day of January,
2019, hereby
ORDERED that Defendants’ Motion for
Summary Judgment is GRANTED; it is further
ORDERED that judgment is entered in favor
of Defendants against Plaintiff on all counts, it is
further
ORDERED that all future hearings and events
are VACATED and this case is CLOSED
SO ORDERED.

81

s/
Robert R. Rigsby, Associate Judge
Superior Court of the District of Columbia

Copies to:
David R. Seaton
1516 Lancaster Street
Apartment 3A
Baltimore, MD 21231

David A. Jackson
Michael K. Addo
Counsel for Defendant
Via CaseFileXpress

SUPERIOR COURT OF THE DISTRICT OF COLUMBIA
82

Civil Division
DAVID R. SEATON,
Plaintiff,

Case No.
2017 CA 006737B
Judge Robert R.
Rigsby

v.
BLAKE JOHNSON, et al.,
Defendants

JUDGMENT
On January 9, 2019, this Court issued an
Order granting Defendants’ Motion for Summary
Judgment. Accordingly, and for the reasons stated in
the January 9, 2019 order, it is this 9th day of
January, 2019, hereby
ORDERED that judgment is entered in favor
of Defendants, City of Washington, DC, John
D’Angelo, Blake Johnson, and Corey Vullo, against
Plaintiff, David R. Seaton, in accordance with the
January 9, 2019 order from this Court.

83

IT IS FURTHER ORDERED that this matter
is closed.
SO ORDERED.

s/
Robert R. Rigsby, Associate Judge
Superior Court of the District of Columbia

Copies to^

David R. Seaton
1516 Lancaster Street
Apartment 3A
Baltimore, MD 21231

David A. Jackson
Michael K. Addo
84

Counsel for Defendant
Via CaseFileXpress
DISTRICT OF COLUMBIA COURT OF APPEALS
No. 19-CV-85

DAVID R. SEATON, APPELLANT,
V.
BLAKE JOHNSON, ET AL., APPELLEES,
Appeal from the Superior Court
Of the District of Columbia
(CAB6737-17)
(Hon. Robert R. Rigsby, Trial Judge)
(Submitted January 17, 2020
Decided March 3, 2021)
Before GLICKMAN and EASTERLY, Associate
Judges, and STEADMAN, Senior Judge.
MEMORANDUM OPINION AND JUDGEMENT
PER CURIAM: After appellant David Seaton had an
altercation with the police outside of a bar, he sued three
85

officers and the District of Columbia in Superior Court
(among others who were subsequently dismissed form the
case), alleging claims of assault, battery, false arrest
excessive force, defamation/libel/slander, negligence, and
intentional infliction of emotional distress. The Court
granted appellees’ summary judgment on all of Mr.
Seaton’s claims. On appeal, Mr. Seaton, who proceeds pro
se as he did in the Superior Court, argues that appellees’
summary judgment motion was not timely filed, and “when
the facts of record were interpreted in the light most
favorable to [him] ...[he] had a valid claim for damages,”
which we understood to mean that, in his view, there were
disputed issues of fact that should have been litigated at
trial. We affirm.
Preliminarily, we note that Mr. Seaton’s brief is
almost a verbatim recitation of his opposition to the
District’s motion for summary judgment, with the result
that he does not acknowledge the particulars of the
86

Superior Court order he seeks to appeal, much less explain
why it is incorrect. But as an appellate court, we look to the
trial court’s summary judgment order to provide the
framework for our analysis, even if our review of the
particular legal rulings made by the trial court warrant de
novo review. See Vessels v. District of Columbia, 531 A.2d
1016, 1019 (D.C. 1987) (explaining that although we
“conduct D an independent review of the record when
reviewing a trial court order granting summary judgment,
our review [is] limited to consideration of whether the trial
court conducted an adequate independent review of the
record in the context of the legal and factual issues as
framed by the parties at summary judgment” (internal
citation omittedO).
The trial court rejected Mr. Seaton’s challenge to the
timeliness of the District’s motion for summary judgment
because the District had filed a motion for an extension of
the time before the original motions deadline expired, and
87

the court subsequently both granted this motion nunc pro
tune and amended the scheduling order. Pursuant to
Superior Court Civil Procedure Rule 6(b)(1), the Superior
Court may at any time in it’s discretion “with or without
motion” grant an extension of time to file so long as “good
cause” is shown and a request “is madeD before Lthe
original time...expires.” Super. Ct. Civ. R. 6(b)(1). Mr.
Seaton does not acknowledge either that the trial court
amended the scheduling order or that it had the discretion
to do so under Rule 6(b)(1); he therefore fails to explain why
the trial court in granting the motion for an extension of
time abused its discretion under the rule. Further, even if
it is true that he never received a copy of the District’s

1 The motion’s certificate of service states the Mr. Seaton was
served through CaseFileExpress, mail, and e-mail, and that the
motion should be treated as contested because the Office of the
Attorney General was unable to reach Mr. Seaton to see if he
would consent.

88

motion for an extension of time,1 he does not explain how
he was prejudiced by the court’s ruling. See Johnson v.
United States, 398 A.2d 354, 366 (D.C. 1979) (explaining
that prejudice is a necessary component of a showing of
abuse of discretion).
Turning to the merits of the trial court’s
summary judgment ruling, the trial court addressed
Mr. Seaton’s battery, assault, and excessive force
claims collectively, addressing his remaining claims
individually, and concluded that all of his claims
failed as a matter of law. Our review of an order
granting summary judgment is de novo. See Aziken
v. District of Columbia, 194 A.3d 31, 34 (D.C. 2018).
Like the trial court, we consider whether “there is no
genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.”
Super. Ct. Civ. R. 56(a); Aziken, 194 A.3d at 34.
Although we examine the record in the light most
89

favorable to the non-movant, conclusory assertions
will not create a triable issue of fact. See Jones v.
Thompson, 953 A.2d 1121, 1124 (D.C. 2008).
1. Assault, Battery, and excessive Force
The trial court examined Mr. Seaton’s assault,
battery, and excessive force claims together because
they all rested on Mr. Seaton’s assertion that the
police had attacked him when he demanded that
they write their badge numbers down. Mr. Seaton
alleged in his complaint that one officer involved in
the incident, Officer Johnson, had head-butted him.
Retreating from that allegation in his opposition to
the motion for summary judgment, Mr. Seaton
asserted that the body worn camera (“BWC”) footage
from the officers showed Officer Johnson “shov[ing]
his head into Plaintiffs face.” Examining the BWC
footage, Mr. Seaton’s affidavit (which did not
reference any physical contact), as well as sworn
90

statements of other eyewitnesses to the incident, the
court concluded that the evidence established that
Mr. Seaton was the one to initiate contact with
Officer Johnson by leaning into the officer “so that
[they] were chest to chest and nose to nose” while
yelling aggressively, thereby providing the officer
with probable cause to arrest Mr. Seaton for
assaulting a police officer. Because his argument on
appeal is a duplicate of his opposition to summary
judgment, Mr. Seaton fails to identify any evidence
in the record that contradicts this assessment or to
explain why the trial court’s evaluation of the
evidence was incorrect. We are unaware of any such
evidence and discern no such reason.
The court also rejected as unsupported by any
evidence Mr. Seaton’s claim that the officers used
excessive force when effectuating his arrest. Relying
on Etheredge v. District of Columbia, 635 A.2d 908,
91

916 (D.C. 1993), the court explained that and officer
using reasonable force to effect an arrest I immune to
a tort claim of assault or battery, and concluded that
the force used against Mr. Seaton “was proportional
to the amount necessary to bring Plaintiff under
control for the arrest.” Specifically, the court found
that the BWC footage showed Officer Johnson
bringing] [Mr. Seaton] down to the ground with
control” - not “throwing] [Mr. Seaton] over his head
like a sack of potatoes,” as Mr. Seaton alleged in his
opposition to the motion for summary judgment.
Again, Mr. Seaton does not challenge the trial court’s
legal analysis and points to no evidence in the record
that creates a disputed issue of fact regarding
whether the police employed excessive force.
2. False Arrest
The court concluded the District was entitled to
summary judgment on Mr. Seaton’s false arrest
92

claim because he failed to present any evidence
supporting the essential element of this tort, that he
was unlawfully detained. See Enders v. District of
Columbia, 4 A.3d 457, 461 (D.C. 2010). The court
relied on its determination that, on the record
presented, the police had probable cause to arrest
Mr. Seaton for assaulting a police officer under D.C.
§ Code 22-405(b) (2020 Supp.), and that Mr. Seaton
had specifically admitted in his deferred prosecution
agreement that the police had probable cause to
arrest him. The trial court rejected as unsupported
by any evidence Mr. Seaton’s claim that he entered
into this agreement against his will or without
knowledge of the terms, specifically noting that Mr.
Seaton was represented by counsel who explained
the agreement to him. On appeal Mr. Seaton does
not direct us to evidence the trial court overlooked!
he simply repeats his assertion that he understood
93

the deferred prosecution agreement only to waive his
speedy trial rights. But as the trial court noted, this
claim of misunderstanding was unsupported by any
evidence and thus entirely conclusory.
3. Defamation, Libel, and Slander2
The trial court also concluded that Mr. Seaton’s
claim that he had been defamed by the false
accusation that he had battered a police officer failed
because he could not show that the accusation was
false. See Oparaugo v. Watts, 884 A.2d 63, 76 (D.C.
2005). (explaining that to prove defamation a
plaintiff must show, among other things, that “a false
and defamatory statement” was made). On appeal
Mr. Seaton reiterates his assertion in the trial court
that the “evidence contained in the record indicates
that Appellees’ lied,” apparently “when they

2- Like Mr. Seaton, the court conglomerated these three claims.

94

submitted statements reasonably calculated to coverup that fact that they escalated the situation.” It is
unclear how such lies were defamatory to Mr.
Seaton. But in any event, as noted above, after
reviewing BWC footage of the altercation, as well as
other evidence, the trial court determined that the
record evidence established Mr. Seaton made
physical contact with Officer Johnson and thus had
assaulted him.
4. Negligence
Citing to our decision in Holder v. District of
Columbia, 700 A.2d 738, 741-42 (D.C. 1997), the trial
court ruled that Mr. Seaton failed to present the
requisite expert testimony to support his claims that
the officers negligently effectuated his arrest, and
that the District breached its duty of care to him by
failing to train its officers in de-escalation tactics and
in documenting their identities for the public.
95

Without citation to any authority, Mr. Seaton asserts
expert testimony is unnecessary because the police
officer’ conduct concerns “a value judgment that We
the People can and must decide for ourselves.” Like
the trial court, we are bound by our precedent that
expert testimony is required to support a claim that
the police were negligent “[b]ecause the applicable
standard of care... is beyond the ken of the average
lay juror,” Holder; 700 A.2d at 741, and we similarly
conclude that the failure to present expert testimony
was fatal to Mr. Seaton’s negligence claims.
5. Intentional Infliction or Emotional Distress
Lastly, the trial court explained that an
intentional infliction of emotional distress claim will
only lie when the conduct at issue is “so extreme in
degree, as to go beyond all possible bounds of
decency, and to be regarded as atrocious and utterly
intolerable in a civilized community.” Ortberg v.
96

Goldman Sachs Group, 64 A.3d 158, 163 (D.C. 2013)
(internal quotation marks omitted). The trial court
correctly determined that the evidence did not
support such a claim where Mr. Seaton’s medical
records showed that he had a minor abrasion to his
face and that the treating physician at Howard
University Hospital otherwise noted an
“unremarkable” evaluation on the night of the
incident, including “[n]o acute distress.” Once again,
Mr. Seaton does not respond to the trial court’s
ruling. He merely repeats his assertions that he
carried his burden to create an issue of fact on this
claim because (l) the police “thr[ew] [him] to the
ground and smashted] [his] face into the concrete in
revenge at being cursed at,” and (2) “he was
tachycardic” while at the hospital. As previously
discussed, the record evidence establishes that the
police executed the takedown after Mr. Seaton
97

assaulted Officer Johnson. And Mr. Seaton’s medical
records simply document that he initially had an
elevated heart rate, “likely due to being upset,” that
returned to normal by the time of his discharge. As a
matter of law, such a temporary physical condition
does not rise to the level of “harmful physical
consequences” indicative of “acute” emotional
distress. See Kotsch v. District of Columbia, 924
A.2d 1040, 1046 (D.C. 2007)
For the foregoing reasons, the judgment of the
Superior Court is Affirmed.
ENTERED BY DIRECTION OF THE COURT:
JULIO A. CASTILLO
Clerk of the Court
Copies sent to:
Honorable Robert R. Rigsby
Director, Civil Division
QMU
98

David R. Seaton
200 W, 80th street
Apartment 5N
New York, NY 10024

Loren L. AliKhan, Esquire
Solicitor General for the District of Columbia

99

